—-
I

C@OCKLE

Le ga ] Bri e fs E-Mail Address:
E contact@cocklelegalbriefs.com
st. 1923,

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

No. 20-828

FEDERAL BUREAU OF INVESTIGATION, et al.,
Petitioners,
v.
YASSIR FAZAGA, et al,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR AMICUS
CURIAE ELECTRONIC FRONTIER FOUNDATION IN SUPPORT OF RESPONDENTS
YASSIR FAZAGA, ET AL. in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 7995 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 28th day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Habraska wx Chk
RENEE J. GOSS: 9. Qudraw- j
Notary Public

My Comm. Exp. September 5, 2023
Affiant 41452
